Supreme Court, U.S.
FILED

WAIVER

SEP 1 6 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5651

Christopher R. Gish

Randall Hepp, Warden
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents; a-nd I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a memberpf the. Bar of the Supreme Court of the .United States,
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date,

September 16, 2020

(Type or print) Name

Kara Lynn Janson
0 Mr. 0 Ms. D Mrs.

Firm

Wisconsin Department of Justice

Address

17 WeSt Main Street, P. 0. Box 7857

4: Madison, Wisconsin

City & StaLe
Phone

0 Miss

608-261.-5809

Zip
Email

53707-7857

melekl@doj.state.wi.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Shelley Fite Counsel for PetitiOher

RECEIVED
OCT 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

